No. ______
OCTOBER TERM 2020

In the

Supreme Court of the United States
TERRY LEE FROMAN,

Petitioner,
v.
THE STATE OF OHIO,

Respondent.

CERTIFICATE OF SERVICE
I, Jessica Houston, being a member of the Bar of the Supreme Court of the
United States, pursuant to Rule 29.5(b), Rules of the Supreme Court, do hereby
certify that a copy of the foregoing Petition For Writ of Certiorari, Motion to Proceed
in Forma Pauperis, and Certificate of Service were forwarded by regular U.S. Mail to
Kirsten A. Brandt, Assistant Prosecuting Attorney, Warren County Prosecutor’s
Office, 520 Justice Dr. Lebanon, Ohio 45036, on this 22nd day of April, 2021.
I further certify that all parties required to be served have been served.
Respectfully submitted,
Office of the Ohio Public Defender

/s/ Jessica Houston
Jessica Houston [0096485]
Assistant State Public Defender
Counsel of Record
Jessica.Houston@opd.ohio.gov
Kimberlyn Seccuro [0099232]
Assistant State Public Defender
Kimberlyn.Seccuro@opd.ohio.gov
250 East Broad Street, Suite 1400
Columbus, Ohio 43215
Ph: (614) 466-5394
Fax: (614) 644-0708
Counsel for Terry Lee Froman

2

